                           OFFICE OF IIYSPECTOR GENERAL
                          CORPORATION FOR NATIONAL AND
                               COMMUNITY SERVICE




                                  AUDIT OF THE
                         CORPORATION FOR NATIONAL AND
                             COMMUNITY SERVICE'S
                     FISCAL YEAR 2002 FINANCIAL STATEMENTS

                                  Audit Report Number 03-01
                                       February 4,2003




                                             Prepared by:

                                            KPMG LLP
                                        200 1 M Street, N.W.
                                       Washington, D.C. 20036

                       Under the Corporation for National and Community Service
                                  Purchase Order # CNSIG-02-G-0001
                                     GS Contract # GS-23F-8127H
                                          Taa:k Order # 00-01




This report was issued to Corporation management on February 4, 2003. Under the laws and
regulations governing audit follow up, the Corporation is to make final management decisions on
the report's findings and recommendations no later than August 4, 2003, and complete its
corrective actions by February 4, 2004. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                                  CORPORATION
                                   Office of Inspector General                                    FOR NATIONAL
                         Corporation for National and Community Service

                 Audit of the Corporation for National and Community Service's
                              Fiscal Year 2002 Financial Statements
                                       Audit Report 03-01


Introduction

In accordance with the Government Corporation Control Act (3 1 U.S.C. 9101 et seq.), the Office of
Inspector General engaged KPMG LLP to audit the Corporation for National and Community Service's
fiscal year 2002 financial statements. This report presents the results of the audit. In summary,

        KPMG's opinion on the financial statements is unqualified.

        KPMG noted certain matters involving the internal control over financial reporting and its
        operations that were considered to be a reportable condition. However, KPMG and OIG
        agree that this reportable condition, more specifically described in Exhibit I, is not a
        material weakness.

        KPMG noted that the Corporation's approval of AmeriCorps national service positions
        in excess of the number of positions it budgeted for violated Subsection 129(f) of the
        NCSA (42 U.S.C. 12581(f)), which requires the Corporation to ensure that there are
        sufficient funds in the National Service Trust to support the projected number of
        enrollments in the Trust before approving national service positions. As a result, in
        November 2002 the Corporation temporarily suspended the ability of its grantees to enroll
        members into national service positions that had already been authorized.

As is our responsibility, OIG participated in the planning of the auditors' work and evaluated the nature,
timing and extent of the procedures performed, monitored progress throughout the audit, and reviewed the
auditors' report and the work papers supportirlg its conclusions, with which we concur.

We provided a draft of this report to the Corporation for their review and comment. The Corporation's
response indicates that the Corporation continued to make improvements in its grants processes including
those for monitoring grantees and has instituted controls over the approval of national service positions at
grantees to prevent a reoccurrence of the condition that led to the pause in enrollments. The response is
presented in its entirety as Appendix A.




                                                                                             Inspector General
                                                                                             1201 New York Avenue, NW
                                                                                             Washington, DC 20525
                2001   M   Street. NW
                Washington, DC 20036




                            Independent Auditors' Report on Financial Statements


Inspector General and
Board of Directors
Corporation for National and Community Service:

We have audited the Statements of Financial Position of the Corporation for National and Community
Service (the Corporation) as of September 30,2002 and 2001, and the related Statements of Operations and
Changes in Net Position and Cash Flows for. the years then ended. These financial statements are the
responsibility of the Corporation's management. Our responsibility is to express an opinion on these
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards, issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audits to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Corporation at Septe:mber 30, 2002 and 2001, and the results of its operations,
changes in its net position, and its cash flow,s for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated January 24,
2003, on our consideration of the Corporation':; internal control over financial reporting and its compliance
with laws and regulations. Those reports are an integral part of an audit conducted in accordance with
Government Auditing Standards, and should be read in conjunction with this report in considering the
results of our audit.




January 24,2003
                     Corporation for National and Community Service
                            Statements of Financial Position
                                   As of September 30
                                            (dollars ,in thousands)



ASSETS
  Fund Balance with Treasury (Note 2)
  Trust Investments and Related Receivables (Note 3)
  Advances to Others
  Accounts Receivable, Net (Note 4)
  Property and Equipment, Net (Note 5)
      Total Assets


LIABILITIES
  Trust Service Award Liability (Note 6)
  Grants Payable
  Accounts Payable
  Actuarial FECA Liability (Note 9)
  Other Liabilities
  Accrued Annual Leave
  Commission Post-Service Benefits Liability (>rote 7)
  Advances from Others
   Capital Lease Liability (Note 8)
      Total Liabilities


Commitments and Contingencies (Notes 8 and 16)

NET POSITION
  Unexpended Appropriations
   Obligated
   Unobligated
  Cumulative Results of Operations
     Total Net Position (Note 10)


       Total Liabilities and Net Position




              The accompanying notes are an integral part of these financial statements.
                     Corporation for National and Community Service
                   Statements of Operations and Changes in Net Position
                           For the Years Ended September 30
                                          (dollars in thousands)



REVENUES
  Appropriated Capital Used, excluding Trust Fund
  Appropriations Received by the Trust Fund (Note I I)
  Interest
  Revenue from Services Provided
  Other
      Total Revenues


EXPENSES
  AmeriCorps
  National Senior Service Corps
  Learn & Serve America
      Subtotal
  Congressionally Earmarked Grants
  DVSA State Grants
  Office of Inspector General
      Total Expenses (Note 12)


NET OF REVENUES OVER EXPENSES

NET POSITION
  Net of Revenues over Expenses
  Increase in Unexpended Appropriations, Net (Vote 14 & 17)
  Non-Operating Changes:
   Permanent Rescission of Trust Funds (Note 15)
   Reclassification of Net Position (Note 17)
  Decrease in Net Position, Net
  Net Position, Beginning Balance
  Net Position, Ending Balance




              The accompanying notes are an integral part of these financial statements.
                          Corporation for National and Community Service
                                      Statement of Cash Flows
                              For the Year Ended September 30,2002
                                              (dollars in thousands)



CASH FLOWS FROM OPERATING ACTIVITIES

Net of Revenues over Expenses

Adjustments Affecting Cash Flow:

 Appropriated Capital Used
 Decrease in Accounts Receivable
 Decrease in Interest Receivable
 Increase in Advances


  Decrease in Accounts Payable, Other Liabilities and
    Advances fi-om Others
  Decrease in FECA and Annual Leave Liabilities
  Decrease in Commission Liability
  Increase in Capital Lease Liability
  Increase in Trust Liability
  Increase in Grants Payable


  Amortization of Premium/Discount on Investments
  Depreciation, Amortization, and Loss on
    Disposition of Assets
  Bad Debt Expense


Total Adjustments

Net Cash Used by Operating Activities

                                                                                               (continued)




                    The accompanying notes are an integral part of thesejnancial statements.
                          Corporation for National and Community Service
                                      Statement of Cash Flows
                              For the Year Ended September 30,2002
                                              ('dollarsin thousands)



CASH FLOWS FROM INVESTING ACTIVITIES

Purchase of Property and Equipment
Sales of Securities
Purchase of Securities
Net Cash Provided by Investing Activities


CASH FLOWS FROM FINANCING ACTIVITIES

Appropriations Received
CanceledIRescinded Appropriations
Net Cash Provided by Financing Activities

Net Cash Provided by Operating, Investing, and Financing Activities

Fund Balance with Treasury, Beginning

Fund Balance with Treasury, Ending



Supplemental Disclosure of Cash Flow Information

  Interest Paid

Supplemental Schedule of Financing and Investing Activities

  Property and Equipment Acquired Under Capital Lease Obligations




                   The accompanying notes are an integral part of thesefinancial statements.
                        Corporation for Na~tionaland Community Service
                                    Statement of Cash Flows
                            For the Year Ended September 30,2001
                                            (dollars in thousands)




CASH FLOWS FROM OPERATING ACTIVITIES

Net of Revenues over Expenses

Adjustments Affecting Cash Flow:

 Appropriated Capital Used
 Appropriations Received by Trust Fund
 Decrease in Accounts Receivable
 Decrease in Interest Receivable
 Decrease in Advances


 Decrease in Accounts Payable, Other Liabilities and
   Advances from Others
 Increase in FECA and Annual Leave Liabilities
 Decrease in Commission Liability
 Decrease in Capital Lease Liability
 Decrease in Trust Liability
 Increase in Grants Payable


  Amortization of PremiumDiscount on Investments
  Depreciation, Amortization, and Loss on
    Disposition of Assets


Total Adjustments

Net Cash Used by Operating Activities




                 The accompanying notes are an integral part of theseJinancia1 statements.
                         Corporation for National and Community Service
                                     Statement of Cash Flows
                             For the Year Ended September 30,2001
                                             (dollars in thousands)



CASH FLOWS FROM INVESTING ACTIVITIES

Purchase of Property and Equipment
Sales of Securities
Purchase of Securities
Net Cash Provided by Investing Activities


CASH FLOWS FROM FINANCING ACTIVITIES

Appropriations Received
CanceledIRescinded Appropriations
Net Cash Provided by Financing Activities

Net Cash Provided by Operating, Investing, and Financing Activities

Fund Balance with Treasury, Beginning

Fund Balance with Treasury, Ending



Supplemental Disclosure of Cash Flow Information

  Interest Paid




                  The accompanying notes are an integral part of these financial statements.
NOTES TO THE FINANCIAL STATEMENTS
NOTE I - SUMMARY OF SIGNIFICANTACCOUYTING POLICIES

A. Basis of Presentation

These financial statements have been prepared to report the financial position, results of operations, and cash flows
of the Corporation for National and Community Service (the Corporation), as required by the Government
Corporation Control Act (3 1 USC 9106) and by the National and Community Service Act of 1990, as amended (42
USC 12651). These financial statements have been pr1:pared from the books and records of the Corporation in
accordance with accounting principles generally accepted in the United States of America (GAAP) as applicable to
Federal corporations and include the Corporation's activities related to providing grants and education awards to
eligible participants. The Corporation is not subject to income tax.
The principal financial statements of the Corporation are the:

         Statement of Financial Position;

         Statement of Operations and Changes in Net Position; and

         Statement of Cash Flows.

The notes to the financial statements are considered an integral part of the financial statements.

B. Reporting Entity
The Corporation was created by the National and Community Service Trust Act of 1993 (Public Law 103-82,42
USC 12651). The Corporation provides grants and other incentives to states, local municipalities, and not-for-profit
organizations to help communities meet critical challenges in the areas of education, public safety, human needs,
and the environment through volunteer service. The Corporation oversees three national service initiatives:

         AmeriCorps is the national service program that annually engages more than 50 thousand Americans of all
         ages and backgrounds in full-time and sustained part-time community service and provides education
         awards in return for such service.

         The National Senior Service Corps is a network of more than 500 thousand people age 55 and older who
         participate in the Foster Grandparent Program, the Senior Companion Program, and the Retired and
         Senior Volunteer Program. These programs tap the experience, skills, talents, and creativity of America's
         seniors.

         Learn & Serve America supports and promotes service learning in schools, universities, and communities.
         Through structured service activities that help meet community needs, nearly one million students improve
         their academic learning, develop personal skills, and practice responsible citizenship.

Together, these initiatives promote the ethic of service and help solve critical community problems in every state,
many Indian tribes, and most U.S. territories.

C. Budgets and Budgetary Accounting

The activities of the Corporation are primarily funded through two separate appropriation bills. One is the
Labormealth and Human Services bill, which funds Domestic Volunteer Service Act (DVSA) programs. The
DVSA appropriation is available for obligation by the Corporation for one fiscal year only.

The second is the Veterans Affairs, Housing and Urban Development, and Independent Agencies bill, which funds
National and Community Service Act (NCSA) programs. The NCSA appropriation is available for obligation by the
Corporation over two fiscal years.

 Both the DVSA and the NCSA appropriations fund a part of the Corporation's costs for administrative operations.
 In addition, part of the NCSA appropriations are provided on a no-year basis for the National Service Trust (the
Trust), a fund within the Corporation primarily used to provide education awards to eligible participants. The Trust
provides awards for AmeriCorps members under AmeriCorps*State and National, AmeriCorps*NCCC, and
AmeriCorps*VISTA as well as for the AmeriCorps Education Award Program, where sponsoring organizations are
responsible for providing member subsistence and other costs, and the Corporation provides an education award and
a small amount for administrative costs.

D. Basis of Accounting

Transactions are recorded in the accounting system on an accrual basis and a budgetary basis. Under the accrual
method of accounting, revenues are recognized when earned and expenses are recognized when a liability is
incurred, without regard to receipt or payment of cash. Appropriations are considered earned for the Corporation's
National Service Trust Fund and are recognized as rev1:nue when received in the Trust Fund.

The recognition of budgetary accounting transactions is essential for compliance with legal constraints and controls
over the use of Federal funds. Budgetary accounting principles are designed to recognize the obligation of funds
according to legal requirements, which in many cases I S prior to the occurrence of an accrual-based transaction.
Thus, the financial statements differ from other financial reports submitted pursuant to Office of Management and
Budget directives for the purpose of monitoring and controlling the use of the Corporation's budgetary resources.

E. Fund Balance with Treasury

The Corporation does not maintain cash in commercial bank accounts. Cash receipts and disbursements are
processed by the U.S. Treasury. The Fund Balance with Treasury represents annual, multi-year, and no-year funds,
which are maintained in appropriated and trust funds that are available to pay current and future commitments.

Funds maintained in the National Service Trust are restricted for use in paying service awards earned by eligible
participants as well as interest forbearance, and are not available for use in the current operations of the Corporation.
The majority of the funds received from individuals and organizations in the form of gifts and donations for the
support of service projects are restricted for a particular use.

F. Trust Investments and Related Receivables

By law, the Corporation invests funds, which have been transferred to the Trust, only in interest-bearing Treasury
obligations of the United States. These Treasury obligations are referred to as market-based specials, which are
similar to government securities sold on the open mark.et, and consist of Treasury notes, bonds, bills and one-day
certificates.

The Corporation classifies these investments as held-to-maturity at the time of purchase and periodically re-
evaluates such classification. Securities are classified ,as held-to-maturity when the Corporation has the positive
intent and ability to hold securities to maturity. Held-to-maturity securities are stated at cost with corresponding
premiums or discounts amortized over the life of the investment to interest income. Premiums and discounts are
amortized using the effective interest method.

Interest receivable represents amounts earned but not received on investments held at year-end. Prepaid interest is
the amount of interest earned on a security since the da.te of its last interest payment up to the date the security is
purchased by the Corporation. Such interest, if any, at year-end is included in the interest receivable balance.

G . Advances to Others

The Corporation advances funds, primarily in response. to grantee drawdown requests, to facilitate their authorized
national and community service and domestic volunteer service activities. The cash payments to grantees, in excess
of amounts earned under the terms of the grant agreements, are accounted for as advances. At the end of the fiscal
year, the total amount advanced to grantees is compared with the Corporation-funded amount earned by the
grantees. Grantee expenses are determined from reports submitted by the grantees. For those grantees with
advances exceeding expenses, the aggregate difference is reported as the advance account balance.
H. Accounts Receivable

Accounts receivable represents amounts due to the Corporation primarily under Federal and non-Federal reimbursable
agreements, grantee audit resolution determinations,and outstanding travel advances due from employees. These amounts
are reduced by an allowance for uncollectible accounts based on the age of each past due account.

I.   Property and Equipment

The Corporation capitalizes property and equipment at historical cost for acquisitions of $10 thousand or more, with
an estimated useful life of two or more years. The assets reported include telephone equipment, computer systems
equipment, copiers, computer software, furniture, and assets under capital leases. These assets are depreciated (or
amortized) on a straight-line basis over estimated usefill lives ranging from two to 10 years, using the half-year
convention. Normal maintenance and repair costs on capitalized property and equipment are expensed when
incurred.

J.   Trust Service Award Liability
The Trust service award liability represents unpaid earned, and expected to be earned, education awards and eligible
interest forbearance costs, which are expected to be used. These amounts relate to participants who have completed
service or are currently enrolled in the program and are: expected to earn an award, based on the Corporation's
historical experience.

K. Grants Payable
Grants are made to non-profit organizations, education institutions, states, municipalities, and other external
organizations. Grants become budgetary obligations, hut not liabilities, when they are awarded. At the end of each
fiscal year, the Corporation reports the total amount of unreimbursed authorized grantee expenses, earned under the
terms of grant agreements, as grants payable.

L. Accounts Payable
The Corporation records as liabilities all amounts that are likely to be paid as a direct result of a transaction or event
that has already occurred. Accounts payable represents amounts due to both Federal and non-Federal entities for
goods and services received by the Corporation, but not paid for at the end of the fiscal year.

M. Actuarial FECA Liability
The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered
Federal civilian employees injured on the job, employees who have incurred a work-related occupational disease,
and beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
incurred for benefits for Corporation employees under FECA are administered by the Department of Labor (DOL)
and later billed to the Corporation. The Corporation's actuarial liability for workers' compensation includes costs
incurred but unbilled as of year-end, as calculated by DOL, and is not funded by current appropriations.

 N. Other Liabilities

 Other liabilities include amounts owed but not paid at 1:he end of the fiscal year for payroll and benefits; VISTA
 stipends; and the portion of the liability for Federal Employees' Compensation Act charges incurred and billed but
 unpaid.

 0 . Accrued Annual Leave

 Annual leave is accrued as a liability based on amounts earned but not used as of the fiscal year-end. Each year, the
 balance in the accrued annual leave account is adjusted to reflect current year pay rates and leave balances. Annual
 leave is funded from current appropriations when used. As unused annual leave is used in the future, financing will
 be obtained from appropriations current at that time. Sick leave and other types of non-vested leave are expensed
 when used.
P. Commission Post-Service Benefits Liability

The Commission post-service benefits liability represents unpaid earned educational benefits incurred by the former
Commission on National and Community Service, which has been managed by the Corporation since 1994. This
liability, more fully discussed in Note 7, is fimded by the Corporation when a request for payment is made.

Q. Advances from Others

Advances from others consist of advances from other government agencies related to interagency agreements the
Corporation entered into to provide services to those agencies.

R. Net Position

Net position is composed of unexpended appropriations and cumulative results of operations. Unexpended
appropriations are funds appropriated and warranted to the Corporation that are still available for expenditure as of
the end of the fiscal year. Cumulative results of operations represent the net differences between revenues and
expenses from the inception of the Corporation.

S. Revenues

    Appropriated Capital Used

The Corporation obtains funding for its program and operating expenses through annual and multi-year
appropriations. Appropriations are recognized on an accrual basis at the time they are used to pay program or
administrative expenses, except for expenses to be funded by future appropriations such as earned but unused annual
leave. Appropriations expended for property and equipment are recognized as used when the property is purchased.
Funds not used for eligible expenses within the allowed time must be returned to Treasury. Appropriations received
for the Corporation's Trust are recognized as revenue when received in the Trust Fund. Trust appropriations do not
expire with the passage of time and are retained by the Corporation in the Trust until used for eligible education
service award purposes.

     Interest

Interest income is recognized when earned. Treasury n.otes and bonds pay interest semiannually, based on the stated
rate of interest. Interest earned on Treasury bills is recognized at maturity. Interest income is adjusted by
amortization of premiums and discounts using the effective interest method.

     Revenue from Services Provided

The Corporation also receives income from reimbursable service agreements that is recorded as revenue from
services provided. Revenue from services provided is :recognized when earned, i.e., goods have been delivered or
services rendered.

     Other Revenue

 Other revenue consists of gifts and donations for the support of service projects from individuals and organizations.

 T. Retirement Benefits

 The Corporation's employees participate in either the Civil Service Retirement System (CSRS) or the Federal
 Employees Retirement System (FERS). FERS was established by the enactment of Public Law 99-335. Pursuant to
 this law, FERS and Social Security automatically cover most employees hired after December 31, 1983. Employees
 hired prior to January 1, 1984, elected to join FERS and Social Security or remained in the CSRS.

 For employees covered by CSRS, the Corporation contributes 8.51 percent of their gross pay towards retirement.
 For those employees covered by FERS, the Corporation contributes 11.50 percent of their gross pay towards
 retirement. Employees are allowed to participate in the. Federal Thrift Savings Plan (TSP). For employees under
FERS, the Corporation contributes an automatic one percent of basic pay to TSP and matches employee
contributions up to an additional 4 percent of pay, for a. maximum Corporation contribution amounting to 5 percent
of pay. Employees under CSRS may participate in the 'TSP, but will not receive either the Corporation's automatic
or matching contributions.

The Corporation made retirement contributions of $940 thousand and $991 thousand to the CSRS Plan, and $5,424
thousand and $5,008 thousand to the FERS and TSP Pl.ans in fiscal years 2002 and 2001, respectively.

U. Use of Estimates

The preparation of financial statements requires management to make estimates and assumptions that affect the
reported amounts of assets and liabilities, the disclosur~:of contingent assets and liabilities at the date of the financial
statements, and the reported amounts of revenues and expenses during the reporting period. Actual results could
differ from these estimates.



NOTE 2 -FUND BALANCE WITH TREASURY

U.S. Government cash is accounted for on an overall consolidated basis by the U S . Department of Treasury. The
Fund Balance with Treasury line on the Statement of Financial Position consists of the following:

         Appropriated Funds - Appropriated funds are received through congressional appropriations to provide
         financing sources for the Corporation's programs on an annual, multi-year, and no-year basis. The funds
         are warranted by the United States Treasury and apportioned by the Office of Management and Budget.

         Trust Funds - Trust Funds are accounts designated by law for receipts earmarked for specific purposes
         and for the expenditure of these receipts. Funds from the Corporation's Trust Fund may be expended for
         the purpose of providing an education award or interest forbearance payment and must always be paid
         directly to a qualified institution (college, university, or other approved educational institution, or a lending
         institution holding an existing student loan) as. designated by the participant, as well as awards under the
         President's Freedom Scholarship Program.

         Gift Funds - Gift Funds are funds received from individuals and organizations in forms of gifts and
         donations for the support of service projects.


                                    Fund Balance with 'Treasuryas of September 30
                                                (dollars in thousands)



          Type                 Unrestricted     Restricted       Total            Unrestricted      Restricted       Total
  Appropriated Funds             $843,179            $ -         $843,179           $825,700              $    -    $825,700
  Trust Funds                             -             88              88                    -               104        104
  Gift Funds                             58            144             202                    6               152        158
  Total                           %843.237           a22         %843.469            %825.706                       %825.962
NOTE 3 - TRUST INVESTMENTS AND RELATE13 RECEIVABLES

The composition of Trust Investments and Related Receivables at September 30 is as follows:


                    Trust Investments and Related Receivables as of September 30
                                        (dollars in thousands)

                                                                         2002                  2001
    Investments, Carrying Value                                        $23 1,754             $303,277
    Investment and Interest Receivable                                     1,526                4,411
    Total                                                              %233.280              %307.688



                        Amortized Cost and Fair Value of Investment Securities as of September 30
                                                 (dollars in thousands)

                 2002                                                 200 1
                 Amortized Unrealized Unrealized             Fair     Amortized Unrealized Unrealized               Fair
    Securities     Cost      Gains     (Losses)             Value       Cost      Gains     (Losses)               Value
    Notes         $162,672   $10,499         $ -           $173,171    $249,197   $1 1,428        $ -             $260,625
I   Bills           60,75 1       199           -            60.950      37,359        398           -              37,757   1
    Bonds            8,33 1       755           -             9,086      16,72 1       599           -              17,320
    Total          %231.754          %11.453          %;z%243307 %303.277               %12.425            %_=%315.702

At September 30, 2002, the notes held at year-end had an interest rate range of 5.50% to 7.50% and a maturity
period of approximately 4 and a half months to almost four and a half years. The interest rate on the bond was
10.75% and had a maturity period of approximately three years. The bills held at year-end had an interest rate range
of .85% to 1.78% and were all due to mature within 90 davs. The par values of these investments range from $25 1
thousand to $29,2 12 thousand.

Investments held at September 30 mature according to the following schedule:


                              Maturation of Securities Held as of September 30
                                           (dollars in thousands)

                                                  2002                                2001
                                         Amortized        Fair              Amortized            Fair
     Held-to-Maturity Securities           Cost           Value               Cost               Value
    Due in 1 year or less                  $1 12,554      $1 13,765            $130.999           $133.128
    Due after 1 year up to 5 years          119,200        129,442              172,278            182,574
    Total                                      %231.754   %243.207               %303.277         %315.702
NOTE 4 -ACCOUNTS RECEIVABLE, NET




1   Accounts receivable
                                 Accounts Receivable as of September 30
                                          (dollars in thousands)


    Less: allowance for loss on receivables
                                                                             2002
                                                                             $3,246
                                                                                225
                                                                                                  2001
                                                                                                  $3,3 14
                                                                                                     244
                                                                                                            I1
    Accounts Receivable, Net                                                  %3.021               %3.070


NOTE 5 - PROPERTY AND EQUIPMENT, NET


                                 General Property and Equipment as of September 30
                                               (dollars La thousands)
                                                2002                                        2001
                       Service                  Less:               Net                     Less:                 Net
                         Life                Accumulated           Book                  Accumulated             Book
      Major Class      (Years)         Cost Depreciation           Value          Cost   Depreciation            Value
     Equipment          3-10          $1,998      $1,458            $540          $2,242       $1,402             $ 840
     Capital leases      3-5             164           92               72           127           65                 62
     ADP software         2            5,042        3,730            1,312         3,449        3,189               260
     Total                            %7.204           2&&@         %1.924        %5.818           %4.656        %1.162



    NOTE 6 - SER VICE A WARD LIABILITY - NA TIO.VAL SER VICE TRUST

    Individuals who successfully complete terms of service in AmeriCorps programs earn education awards, which can
    be used to make payments on qualified student loans or for educational expenses at qualified educational
    institutions. The awards, which are available for use fca a period of up to seven years, are paid from the National
    Service Trust. The Trust also pays forbearance interest on qualified student loans during the period members
    perform community service as well as awards under the President's Freedom Scholarship Program. The award
    liability components related to education awards and interest forbearance have been adjusted, based on historical
    experience, to reflect the fact that some eligible participants may not use these benefits. The service award liability
    was composed of the following as of September 30:


                                   Service Award Liability as of September 30
                                             (dollars in thousands)
                                                                                   2002
     Education awards                                                            $603,353
     Interest forbearance                                                          22,269
     President's Freedom Scholarship Program                                       11,305
     Total service award liability                                                636,927
     Less: cumulative awards paid                                                 405,498
     Total                                                                       $231.429


    The net service award liability as of September 30,2002, increased by approximately $45 million from the net
    service award liability as of September 30, 2001. This increase was largely due to an increase in the numbers of
    volunteers enrolled and in the overall percentage of awards projected to be used.
NOTE 7 - POST-SER VICE BENEFITS LIABILITY, COMMISSION ON NATIONAL AND COMMUNITY
SERVICE
The Commission on National and Community Service (Commission) was merged into the Corporation for National
and Community Service during fiscal year 1994. With this merger, the Corporation became responsible for all
Commission liabilities, including those for post-servic~:benefits.

Post-service benefits liabilities from the former Commission's operations differ from those originating within the
Corporation in three significant respects: (1) the grantee, rather than an agency of the Federal government, is
responsible for making post-service award payments; (2) the portion of these awards which is funded by the Federal
government is specified in each grant agreement, with any remaining amount funded by the grantee; and (3) the
post-service period during which an award is available for use was established by each program grantee, rather than
set at seven years for all awardees.

The post-service benefits liability associated with the former Commission is estimated based on a review of its
grants that authorize post-service benefits. Amounts shown below represent the aggregate maximum liability under
the assumption that all funds obligated for post-service benefits remain payable to grantees for this purpose until
they are drawn down or the period of award availability has expired.



I               Commission Post-Service Benefits Liabdlity as of September 30
                                      (dollars in thousands)
                                                                 2002                2001
    Estimated liability as of previous year-end                    $662             $1,439
    Less: drawdowns and adjustments                                1                    31
    Potential education awards                                      66 1             1,408
    Less: award expirations                                         477                746
    Total                                                          %LS4              %662

All former Commission awards are scheduled to expire by December 31,2002.



NOTE 8 - CAPITAL AND OPERATING LEASES

A. Capital Leases

The Corporation has entered into lease agreements for copy machines. These leases vary from 3 to 5 year terms and
are deemed to be capital leases. The costs of the copiers have been recorded as property and equipment (also see
Note 5). The following is a schedule by year of the future minimum payments under these leases:


                        Capital Leases Future Minimum Due as of September 30
                                         (dollars in thousands)
                                                                         2002
    Fiscal Year 2002                                                              $-
    Fiscal Year 2003                                                              41
    Fiscal Year 2004                                                              13
    Fiscal Year 2005                                                              12
    Fiscal Year 2006                                                              12
    Fiscal Year 2007                                                              -9
    Total future minimum lease payments                                           87
    Less: amounts representing interest                                           12                    7
    Total                                                                         -
                                                                                  $25                %h4
B. Operating Leases

The Corporation leases office space through the General Services Administration (GSA). GSA charges the
Corporation a Standard Level Users Charge that apprortimates commercial rental rates for similar properties. NCCC
also leases housing facilities for its campuses. Additionally, the Corporation leases motor vehicles on an annual
basis through GSA under an Interagency Fleet Management Service agreement for the National Civilian Community
Corps. Commitments of the Corporation for future ren.ta1 payments under operating leases at September 30 are as
follows:


                               Estimated Operating Lcase Commitments as of September 30
                                                 (dollars in thousands)
                                          2002                                                                  2001
     Fiscal      Facilities                                                             Facilities
    Year          Space        Vehicles          Other               Total               Space        Vehicles         Other         Total
      2002         $      -      $       -          $    -            $       -           $ 6,327       $ 886             $218       $7,431




      2007             8,783         1,081               57               9,92 1                 -              -            -            -

    Total          %37.580       %5.338             %354%43.272%33.413%4.771                                                         %39.133



NOTE 9 - WORKERS' COMPENSATION

The Corporation's actuarial liability for future workers' compensation benefits (FECA) was $1 1,521 thousand and
$12,637 thousand as of September 30,2002 and 2001, respectively. The amount includes the expected liability for
death, disability, medical, and miscellaneous costs for approved compensation cases. The actuarial liability is
determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to
predict the ultimate payments related to that period. Consistent with past practice, these projected annual benefit
payments have been discounted to present value using the Office of Management and Budget's economic
assumptions for 10-year Treasury notes and bonds.


NOTE 10 - NET POSITION

The reported net position consists of unexpended apprc~priationsand cumulative results of operations (cumulative
results of operations represents the differences between.revenues and expenses since the Corporation's inception).
Component balances are separately maintained for the \SiftFund, Trust Fund and Appropriated Fund.


                                       Net Position by Fund Balance Components
                                                  (dollars in thousands)

I                                                As of September 30,2002

                                                                                               Appropriated
                                                    Gift Fund             Trust Fund              Fund                  Total
    Unexpended appropriations
                 - -  .
                                                          $     -                  $      -        $807,379              $807,379
    cumulative results of operations                          ti49                     1,957        (17,558)              (14,952)
    Total Net Position                                    $ifif                   %1.957             %789.821           %792.427
                                    Net Position by Fund Balance Components
                                               (dollars ,in thousands)

                                            As of September 30,2001

                                                                                 -- -
                                                                                Appropriated
                                               Gift Fund       Trust Fund          Fund               Total
 Unexpended appropriations                           $    -       $        -        $789,156           $789,156
 Cumulative results of operations                        154          121,395        (19,057)           102,492
 Total Net Position                                  %&$121.395
                                                        I                           %770.099            %891.648



NOTE 11 -APPROPRIATIONS RECEIVED BY THE TRUST FUND

No appropriations were received for the Trust Fund for fiscal 2002. Fiscal 2001 appropriations received by the
Trust Fund of $69.8 million are composed of $70 million appropriated per Public Law 106-377, net of the $154
thousand Trust portion of the rescission to NCSA per Public Law 106-554. The Trust portion of the NCSA
rescission was transferred back to NCSA, reducing the net amount of appropriations received by the Trust Fund
during fiscal 200 1.



NOTE 12 - EXPENSES

Using an appropriate cost accounting methodology, tht: Corporation's expenses have been allocated among its major
programs.

        The AmeriCorps (AIC) responsibility segment includes grant expenses, as well as direct and allocated
        personnel and administrative costs, for VISTA, NCCC, State & National, and AmeriCorps recruitment.

         The National Senior Service Corps (NSSC) responsibility segment includes grant expenses, as well as
         direct and allocated personnel and administraiive costs, for the Foster Grandparent Program, Senior
         Companions Program, and the Retired and Senior Volunteer Program.

         The Learn & Serve America (L&S) responsibility segment includes grant expenses, as well as direct and
         allocated personnel and administrative costs, for the Learn & Serve America Program, the President's
         Student Service Challenge, and National Service Leader Schools.

         The National Service Award line item consi:jts of the Corporation's estimated expense for education
         awards based on the increase in its service award liability during the year, interest forbearance costs on
         qualified student loans during the period members perform community service, as well as disbursements
         for the President's Student Scholarship Program. No indirect costs have been allocated to this line item.

         The Corporation's annual appropriation includes various Congressionally Earmarked Grants. No
         indirect costs have been allocated to these grants.

         The Corporation has reimbursable agreements with state agencies whereby the Corporation awards and
         administers grants to a list of grantees selected and funded by the State. No indirect costs have been
         allocated to these grants.

         The Office of Inspector General (OIG) receives a separate appropriation. No indirect costs have been
         allocated to the OIG.
The costs of operating the Corporation's Volunteers in Service to America (VISTA) and National Civilian
Community Corps (NCCC) grant programs and provid~ngadministrative support for Trust Fund operations are
included in the operating expenses of the Corporation. The largest component of total expense is awarded funds
expended.


                 Components of Awarded Funds Expended for the years ended September 30
                                         (dollan:in thousands)

                                                                          2002                         2001
 Domestic Volunteer Service Act Programs                                     $188,505                     $202,58 1
 National and Community Service Act Programs                                   337,569                     321,262
 Earmarked Grants
    Congressionally Earmarked Grants                                $23,944                     $12,70 1
    DVSA State Grants                                                   75 1                        778
 Total Earmarked Grants                                                            24,695                    13,479
 Total Grants Expense                                                           S550.769                   %537.322




                            Expenses by Type for the year ended September 30,2002
                                        reporter (dollars in thousands)
                                                                                              Earmarked
                    Type                         A/C         NSSC         L&S         OIG       Grants      Total
 Grant and Related Expense
    Awarded funds expended
    VISTA & NCCC stipends & benefits
    Service award expense
        Total Grant and Related Expense

 Administrative Expense
    Federal employee salaries & benefits
    Travel & transportation
    Rent, communications, & utilities
    Program analysis & evaluation
    Printing & reproduction
    Other services
    Supplies & materials
    Loss on disposition of assets
    Depreciation & amortization
    Bad debt
    Other                                         ..
                                               -- 7R7
        Total Administrative Expense             74,505       10,217       5,185      5,006           -      94,913
  Total Expenses by Type                       %5563:u%196382%62.495%5.006                      %24.695%844.809
                            Expenses by Type for the year ended September 30,2001
                                            (dollars in thousands)
                                                                                                Earmarked
                    TYP                            A/C         NSSC         L&S        OIG        Grants        Total
Grant and Related Expense
  Awarded funds expended
  VISTA & NCCC stipends & benefits
  Service award expense
     Total Grant and Related Expense

Administrative Expense
  Federal employee salaries & benefits
  Travel & transportation
  Rent, communications, & utilities
  Program analysis & evaluation
  Printing & reproduction
  Other services
  Supplies & materials
  Loss on disposition of assets
  Depreciation & amortization
  Bad debt
  Other
      Total Administrative Expense                 69,596        9,110       5,120      5,120             -      88,946
Total Expenses by Type                           %5(17.514%186.471%54.112%5.120                     %13.479%766.696


NOTE 13 - NATIONAL SERVICE A WARD EXPENSE

Members participating in the Trust programs are eligible to earn a service award to pay for qualified education
expenses. The Trust also pays interest forbearance costs on qualified student loans during the period members
perform community service. The Corporation estimates the expense for national service awards based on the
increase in its cumulative service award liability during the year (see Note 6). The total service award liability as of
September 30,2002 and 2001, respectively, has been adjusted to reflect the fact that earned awards are not always
used.


                    National Service Award Expense for the years ended September 30
                                         (dollars in thousands)

                                                                                           2002           2001
                                                                                         $126,206        $69,473
 Estimated interest forbearance                                                             4,258          5,182
                                                                                            2,965          2,769
                                                                                         %133.429        %77.424
NOTE I4 - INCREASE IN UNEXPENDED APPROPRIATIONS, NET


                     Increase in Unexpended Appropriations, Net as of September 30
                                         (dollars in thousands)

                                                                                  2002                 2001
 Increases:
 Appropriations received, net of trust                                          $735,875             $697,504
 Reclassification of Net Position (see Note 17)                                          -              1,978
 Total Increases                                                                 735,875              699,482

 Decreases:
 Appropriated capital used, net of trust
 Rescinded appropriations, net of trust
 Canceled appropriations
 Total Decreases                                                                (7 17,651)           (694,150)
 Increase in Unexpended Appropriations, Net                                    !uG?!B                u

NOTE 15 - TRUST FUND RESCISSION

In fiscal 2001 $30 million appropriated under the National and Community Service Act of 1990 (Act) and
transferred to the National ~ & $ e Trust were rescinded. This rescission permanently reduced the amount available
under subtitle D of title I of the Act (42 U.S.C. 12601 at seq.) for the disbursement of education awards and interest
forbearance.


NOTE I 6 - CONTINGENCIES

    Contingencies
The Corporation is a party to various routine administrative proceedings, legal actions, and claims brought by or
against it, including threatened or pending litigation involving labor relations claims, some of which may ultimately
result in settlements or decisions against the Corporation. In the opinion of the Corporation's management and legal
counsel, there are no proceedings, actions, or claims outstanding or threatened that would materially impact the
financial statements of the Corporation.

    Judgment Fund
Certain legal matters to which the Corporation is named a party may be administered and, in some instances,
litigated and paid by other Federal agencies. Generally, amounts paid in excess of $2.5 thousand for Federal Tort
Claims Act settlements or awards pertaining to these litigations are funded from a special appropriation called the
Judgment Fund. Although the ultimate disposition of any potential Judgment Fund proceedings cannot be
determined, management does not expect that any liability or expense that might ensue would be material to the
Corporation's financial statements.


NOTE 17 - RECLASSIFICATION OF NET POSITlON
No reclassifications to Net Position occurred in fiscal 2002. During fiscal 2001, the Corporation fully reconciled its
budgetary and proprietary accounts, which resulted in the need to reclassify cumulative results of operations and
unexpended appropriations (see Note 14) by approxima.tely $2 million.
               2001 M Street, NW
               Washington, DC 20036




             Independent Auditors' Report on Internal Control over Financial Reporting


Inspector General and
Board of Directors
Corporation for National and Community Service:

We have audited the financial statements of the Corporation for National and Community Service (the
Corporation) as of and for the years ended September 30, 2002 and 2001, and have issued our report
thereon dated January 24, 2003. We conducted our audits in accordance with auditing standards generally
accepted in the United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the: Comptroller General of the United States.

In planning and performing our 2002 audit, we considered the Corporation's internal control over financial
reporting by obtaining an understanding of the Corporation's internal control, determining whether these
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control tjesting to those controls necessary to achieve the objectives
described in Government Auditing Standards. The objective of our audit was not to provide assurance on
the Corporation's internal control. Consequently, we do not provide an opinion on internal control over
financial reporting.

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the Corporation's ability to record, process,
summarize, and report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or operation of one or more
of the internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in any internal control, misstatements due to error or fraud may occur and
not be detected.

We noted certain matters, described in Exhibit I, involving the internal control over financial reporting and
its operation that we consider to be a reportable condition. However, we do not believe that the reportable
condition presented in Exhibit I is a material weakness. Exhibit 11 presents the status of the prior year
reportable condition.




  1111             KFMG LtP KPMG I LP a U S lm~reda b l ~ t ypa8'ners-p
                   a inemher of KPMG internattonal a S w s s assccatton
                                                                          1.
We also noted other matters involving internal control and its operation that we will report to the
management of the Corporation in our manag-ment letter which will be issued as OIG Audit Report 03-02.

We provided a draft of this report to the Corporation. The Corporation's response to our report is included
as Appendix A.

As required by the Government Corporation control Act, this report is intended solely for the information
and use of the United States Congress, the President, the Director of the Office of Management and
Budget, the Comptroller General of the United States, and the Corporation for National and Community
Service and its Inspector General, and is not intended to be and should not be used by anyone other than
these specified parties.




January 24,2003
                                                                                                        Exhibit I

                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                              Reportable Condition
                                              September 30,2002



GRANTS MANAGEMENT
The Corporation awards National and Community Service Act (NCSA) and Domestic Volunteer Service Act
(DVSA) grants to state and local governments, institutions of higher education, and other not-for-profit
organizations. The Corporation expends the majority of its appropriated funds on grants, and grant activities
result in the most significant components of the Corporation's financial statements. Therefore, it is critical that
the Corporation monitor grantees7activity closely to ensure that grantees are complying with applicable laws and
regulations related to the administration of the respective grant awards.

Grantees are required to expend funds for allowable costs and provide periodic reports to the Corporation to
demonstrate programmatic and financial compliance with the terms of the respective grant agreements. The
majority of NCSA grant hnds must be spent to support program members recruited to provide a variety of
community service activities. The Web Based Reporting System (WBRS) is currently used to transmit member
enrollment and end-of-term data from the majority of State Commissions and selected National Direct grantees.
Both grantees and their subgrantees have access to VVTBRS. Controls over the input of enrollment and end-of-term
forms via WBRS are critical to ensure the integrity of the National Service Trust database, System for Programs,
Agreements and National Service participants (SPAN), which is also used to calculate the service award liability
and the Trust's estimated budgetary needs, and therefore should be reviewed as part of the Corporation's grant
management procedures. For the fiscal year ended S'eptember 30,2002, the Corporation disbursed approximately
$82 million from the National Service Trust on behalf of members who earned an education award for program
years 1994 to 2002.

The following paragraphs discuss weaknesses noted in the Corporation's internal control over grants
management.

Improvement Needed In Grant Approval Policies and Procedures
The National Service Trust receives appropriated fimds restricted for education and similar awards earned by
eligible participants who successfully complete a term of service in AmeriCorps under the NCSA, as amended.
The Trust has other sources of funds in addition to appropriated amounts. These include interest on and proceeds
from the redemption of Trust investments. Educat:ion awards earned by ArneriCorps members are generally
available for seven years from the end of service.

In fiscal years 2001 and 2000, Congress rescinded $30 million and $81 million, respectively, of amounts
previously appropriated under the NCSA and transferred to the Trust. The rescissions permanently reduced the
amount available for the disbursement of education awards. In its fiscal year 2002 budget submission to
Congress, the Corporation indicated that no new authority was required in fiscal year 2002 for the Trust Fund
costs associated with new AmeriCorps members, as it had determined that sufficient funds were available in the
Trust to support the estimated education award liability for all members expected to earn and use an award for
service to be completed through program year 2002. Hence, Congress appropriated no funds for the Trust for
fiscal year 2002. The Corporation's determination was based on a number of assumptions, including estimated
new AmeriCorps member enrollments remaining constant at 43,000 for program years 2000 to 2002.
                                                                                                        Exhibit I

                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                             Reportable Condition
                                              September 30,2002



The results of our tests of compliance with the NCSA Subsection 129(f) disclosed that the Corporation approved
national service positions (i.e., estimated new members to be enrolled) during fiscal year 2002 in excess of the
estimated number of national service positions that could be supported by the Trust. The actual number of
ArneriCorps members enrolled in the Trust for program years 2000 and 2001 (approximately 53,000 and 59,000,
respectively, some of whom were enrolled in fiscal year 2002), were significantly higher than the number of
enrollments that had been estimated for these program years. However, the number of national service positions
approved in fiscal year 2002, for program year 201D2, was not adjusted to ensure the total number of positions
approved did not exceed the estimated number of positions that could be supported by the Trust as of September
30, 2002. Consequently, in November 2002, the Corporation had to suspend the ability of its grantees to enroll
members into national service positions that had already been authorized.

We believe that some of the reasons for the Corpcaation's approval of enrollments in excess of its estimate of
what the Trust Fund could reasonably support were as follows:

    The Corporation did not have effective internal controls to assess the impact of enrollments on the Trust prior
    to authorizing new national service positions.

    Corporation staff focused exclusively on available appropriations for AmeriCorps grants, and did not
    adequately consider the impact of education awards when making grant decisions to support new national
    service positions.

    There was a lack of coordination between the AmeriCorps Program Office, Grants Management Office
    (GMO), Trust Office, and Budget Office for annual approval of new national service positions to be
    allocated to programs.
Under the grant award process in place during fiscal 2002, the Corporation published Notices of Funds
Availability based on its approved priorities and guidelines and the enacted appropriations level. The
AmeriCorps Program Office, in consultation with senior staff, decided the hnding level and numbers of
positions awarded to each program without regard to the number of positions available in the Trust. Instead, the
AmeriCorps Program Office prepared a certification form that specified the grant budget and the number of
positions allocated to the program. Based on that ce:rtification, the GMO issued a Notice of Grant Award (NGA),
which included the grant number, project period, award amount, and number of approved national service
positions. The GMO sent the number of approved national service positions to the Trust Office to download into
SPAN and WBRS. The number of approved national service positions downloaded into SPAN and WBRS for
program years 2000, 2001 and 2002 were approximately 59,000, 61,000 and 67,000, respectively, exceeding the
number used for budget purposes in each program year. We were informed that the Corporation approved more
positions than originally budgeted to take into consideration the number of AmeriCorps members who
historically do not complete their term of service or use their education award.

In addition, we noted that enrollments in excess of the originally approved national service positions downloaded
into SPAN and WBRS are permitted by the Corpo:ration, and that both the program officers and grant officers
have access in WBRS to approve additional enrollments by programs. Access controls have not been established
to prevent program officers from approving additional enrollments in WBRS. Based on our review of the
AmeriCorps Program Director's Handbook, requests; for additional enrollments should be approved by the Grants
                                                                                                     Exhibit I

                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                            Reportable Condition
                                             September 30,2002



Officer. However, WBRS procedures contradict thi!; and permit Grant Officers or AmeriCorps Program Officers
to approve additional enrollment requests.

Finally, Corporation grants are funded for specified budget periods and approved national service positions are
documented on the NGA. The budget period represents the time frame for which the grantee has received
funding. Each program has one year from the beginning date of the respective program to recruit and enroll
members. For example, the program begin date may start anytime during the grantee's budget period, therefore if
the program begin date was the last month of the gmntee's budget period, they would have one year from that
date to enroll all their members for that particular program year. However, there were no controls in WBRS to
prevent grantees from enrolling members after the program year enrollment period ended. During fiscal year
2002, we noted that the Corporation enrolled 10 and 1,685 members for program years 1999 and 2000,
respectively, subsequent to the end of the programs' enrollment period (two years from the beginning of the
budget period).

Recommendations.

    Policies and procedures should be revised to ensure that the ArneriCorps Program Office, GMO, and Trust
    Office staff are involved in the budgeting pr.ocess, national service position approval and amendment
    process. The Trust Office staff should ensure that funds are available in the Trust to meet the estimated
    liability to be incurred prior to approval.

    Reports should be generated on a monthly basis to compare the number of approved national service
    positions to the actual members enrolled. Senior management should review these reports on a timely basis
    to ensure that enrollments do not exceed the Corporation's estimates.

    Automated controls should be implemented in WBRS to limit approval for additional enrollments to
    authorized Grants Officers, and to prevent grantees fiom enrolling members after the program year
    enrollment period ends.
Imvrovement Needed In Monitoring Grantee Activities

The Corporation is responsible for ensuring that grantees comply with applicable laws and regulations related to
the administration of the respective grant awards, including those related to enrollment and Federal cash
management. The Corporation has established fortrial grantee monitoring procedures that include periodic site
visits to grantees, a process for obtaining, reviewing, and issuing management decisions on audit findings
reported by the OIG as well as nonfederal auditors in OMB Circular A-133 single audit reports, training
conferences for grantee personnel, open lines of communication between program managers and grantees, and a
grant closeout process. For DVSA grants, the Corporation utilizes the Senior Corps Compliance Monitoring
Handbook. For NCSA grants, the State Commissicln Administrative Standards review is the primary tool for
monitoring State Commission grantees. The Corporation also has a separate monitoring tool for National Direct
grantees. In addition to these standard tools, the Grants Management Office (GMO) uses a financial monitoring
tool for selected reviews it deems necessary based on risk analyses.

However, during fiscal year 2002, we noted the Corporation did not effectively employ these monitoring tools.
Specifically, we noted the following weaknesses in the Corporation's monitoring of its grantees:
                                                                                                       Exhibit I

                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                              Repol-table Condition
                                               September 30,2002



   The GMO prepares a detailed risk assessment plan for NCSA grantees to determine the most efficient and
   effective means of conducting monitoring visits. At the beginning of the fiscal year, each grantee is assigned
   a risk assessment rating based on key risk indicators determined by the Corporation. However, there are no
   documented site visit guidelines to determine which grantees are visited if given the same rating. During
   fiscal year 2002, we noted that monitoring visits were conducted for only 6 of 15 grantees that were assigned
   a "high r i s k rating and for only 3 of 28 grantees that were assigned a "medium risk" rating.

   The Corporation has established new procedures to enable the State Offices to enter monitoring information
   for the National Senior Service Corps (NSSC:) into a new E-grants system. However, the new E-grants
   system is not fully implemented. Hence, the monitoring compliance information was not entered in any
   database during fiscal year 2002. Additionally, the NSSC policies require monitoring visits to be performed
   every three years. During our audit, we noted that the Corporation did not conduct monitoring visits for 6 of
   30 NSSC active programs within the last three: years and we were unable to determine if monitoring visits
   were performed for 5 other NSSC programs as 110documentation was received as of the date of this report.

   The State Administrative Standards policies require monitoring visits to be performed every three years. The
   Corporation began performing Standards visits during fiscal year 1999 for 6 grantees. We reviewed the
   Standards monitoring traclung spreadsheet and noted that no monitoring visits were performed for these 6
   grantees during fiscal year 2002. We understand that these grantees will be visited in fiscal year 2003, which
   is a time lag of more than three years.

Some of the reasons for the reduction in monitoring visits include:

    Lack of resources (travel funds) for visits to be conducted; and

   NSSC monitoring visits are decentralized and performed by 49 State Offices, who are not being monitored
   closely by management to ensure visits are being performed.
Since the Corporation relies on its grantees to ensure its mission is achieved through properly administered grant
programs, monitoring of grantee compliance with laws and regulations is critical. Inadequate monitoring of
grantee performance under the terms of grant agreements could result in instances of potential noncompliance
with financial or programmatic requirements not being identified and resolved timely.
Recommendations:

    Formalize GMO monitoring procedures to include detailed guidance on how the risk assessment plan should
    be used to determine which grantees should be visited.

    Implement procedures to ensure that State Administrative Standards monitoring visits are performed for
    applicable grantees at least once every three years.
                                                                                                   Exhibit I

               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                         Reportable Condition
                                          September 30,2002



Enhance policies and procedures to ensure that a more thorough management review is performed by GMO
to ensure that State Offices are following the Corporation's grants management policies.

Ensure that the NSSC Compliance Monitoring information is documented by the State Offices and is made
available for management review as soon as possible. Additionally, the Senior Program staff should review
the monitoring database on a regular basis to ensure that monitoring visits are performed at least once every
three years.
                                                                                     Exhibit I1
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                           Status of Prior Year Reportable Conditions




FY2001 Finding                                                   FY2002 Status
Monitoring of Grantee Activities -             2001 -
                                                                 Monitoring of grantee activities continues
Procedures for monitoring grantee activities   Reportable
                                                                 to require improvement. Further, as the
need to be more effective.                     Condition
                                                                 Corporation expanded the education award
                                                                 program and increased the number of
                                               2002 -
                                                                 members performing service during fiscal
                                               Reportable
                                                                 year 2002, the control environment needs
                                               Condition
                                                                 to be modified to effectively monitor
                                                                 program activities.
                                                                 This finding has been revised to reflect
                                                                 fiscal year 2002 operations, and is repeated
                                                                 as a continuing reportable condition for
                                                                 2002.
              2001 M Street, NW
              Washington, DC 20036




              Independent Auditors' Repoirt on Compliance with Laws and Regulations


Inspector General and
Board of Directors
Corporation for National and Community Service:

We have audited the financial statements of the Corporation for National and Community Service (the
Corporation) as of and for the years ended September 30, 2002 and 2001, and have issued our report
thereon dated January 24, 2003. We conducted our audits in accordance with auditing standards generally
accepted in the United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.

The management of the Corporation is responsible for complying with laws and regulations applicable to
the Corporation. As part of obtaining reasonable assurance about whether the Corporation's 2002 financial
statements are free of material misstatement, we performed tests of its compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with laws
and regulations was not an objective of our audit and, accordingly, we do not express such an opinion.

Our tests of compliance with certain laws and regulations, as described in the preceding paragraph,
disclosed an instance of noncompliance with the National and Community Service Act (NCSA) that is
required to be reported under Government Auditing Standards. Specifically, the Corporation's approval of
ArneriCorps national service positions in excess of the number of positions it budgeted for violated
Subsection 129(f) of the NCSA (42 U.S.C. 12581(f)), which requires the Corporation to ensure that there
are sufficient funds in the National Service 'Trust to support the projected number of enrollments in the
Trust before approving national service positions. As a result, in November 2002 the Corporation
temporarily suspended the ability of its grantees to enroll members into national service positions that had
already been authorized. This matter is discussed in more detail in Exhibit I to our separate Independent
Auditors' Report on Internal Control over Financial Reporting.

Additionally, the Corporation's Office of Inspector General and the General Accounting Office (GAO) are
performing ongoing reviews to determine whether a violation of the Anti-Deficiency Act (Title 3 1, U.S.
Code, section 1341, as amended) has occurred as a result of the Corporation's noncompliance with the
NCSA. These investigations have not been completed as of the date of this report. The Anti-Deficiency Act
provides, in part, that an officer or employee of the United States Government may not (I) make or
authorize an expenditure or obligation exceeding an amount available in an appropriation or fund for the
expenditure or obligation, and; (2) involve the government in a contract or obligation for the payment of
money before an appropriation is made un1e:ss authorized by law. Whether the Corporation violated the
Anti-Deficiency Act is a legal determination. The Corporation should request a written legal opinion on
whether a violation of the Anti-Deficiency Ac't has occurred.
As required by the Government Corporation Control Act, this report is intended solely for the information
and use of the United States Congress, the President, the Director of the Office of Management and
Budget, the Comptroller General of the United States, and the Corporation for National and Community
Service and its Inspector General, and is not intended to be and should not be used by anyone other than
these specified parties.




January 24,2003
                      APPENDIX A

CORPORATION FOR NATIONAL AND COMMUNITY SERVICE RESPONSE
                                      COMMUNITY
                                      SERVICE-

                                                        February 4,2003




The Honorable J. Russell George
Inspector General
Corporation for National and
  Community Service
1201 New York Ave., NW
Suite 830
Washmgton, DC 20525

Dear Mr. George:

         Thank you for the opportunity to comment on the draft report on the audt of the
Corporation's fiscal 2002 financial statements. Developing and maintaining sound financial
practices at the Corporation is one of my key objecuves. That is why I am pleased that the
Corporauon continues to receive an unqualified opinion on its financial statements. These audt
opinions demonstrate the Corporation's commitment to strong management controls and financial
systems. However, whde the Corporauon has madc significant improvements over the past several
years, I recognize that more needs to be done and I am committed to establishmg a work
environment that strives for contmuous improvement in the Corporation's operauons.

        The fiscal 2002 financial au&t idenufies grants management as an area of the Corporation's
operations that needs improvement and makes several recornrnenda~onsto improve grant approval
polices and procedures and grantee compliance monitoring. Over the past year, the Corporauon
continued to make improvements in its grants processes inclulng those for monitoring grantees. In
addtion, I have requested our Board of Directors to review the Corporation's grant award policies
and procedures. Recommendations from that review should be available t h s spring.

        Regardmg the recommendations to improve grant approval policies and procedures, I have
recently established new procedures to ensure that Corporation staff takes Trust f u n l n g needs into
account and does not exceed the projected number of positions in m a h g grants for AmeriCorps
programs. These procedures include requirements for AmeriCorps to include an estimate of the
number of positions that would result from a grant award and to track and report enrollment
inforlnauon to the Chief Financial Officcr and me on a bi-weekly basis. In addtion, procedures
were established to ensure that the Corporauon's financial staff has timely and accurate inforlnauon
about AmeriCorps enrollments to use in updating forecasts of Trust liabhties and recorlng Trust
fund obliga~ons.

       Regardmg the recommendauon to request a written legal opinion on whether a violauon of
the Antideficiency Act occurred, the facts surrounding the need to pause enrollment of AineriCorps




                              1201 New York Avenue, NW    *
                                                         Washington, DC 20525
                                    202-606-5000 + www.nationalservice.org
                             Senior Corps   * AmeriCorps * Learn and Serve America               The President', Call   to   Service
                                                                    The Honorable J. Russell George
                                                                                        Page 2 of 2


members into the National Service Trust are under review. As part of that review, I have sought,
and wdl continue to seek, legal determinations on the Corpora~on'scompliance with the
A n ~ d e f i c i e n cAct.
                        ~ To date, those determinations have concluded that the Corporauon complied
with the Antideficiency Act.

        The Corporauon would also hke to express its appreciation for the effort that your staff and
the staff of IQMG made on the fiscal 2002 audlt.




                                                                                             -.
                                                       Chief Executive Officer
